IN THE SUPREME COURT OF THE UNITED STATES

BOCILLA ISLAND SEAPORT, iNC.
Petitioner
No:

vs.

19-0536

COMMISSIONER OF INTERNAL REVENUE
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
November 04, 2019
cc:
DAVID D. AUGHTRY
CHAMBERLAIN, HRDLICKA, WHITE,
WILLIAMS & AUGHTRY
191 PEACHTREE STREET
46TH FLOOR
ATLANTA, GA 30303-1747

